Washington, D.C. 20530

December 2, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re:

Alex Cori Tribue v. United States of America,
S.Ct. No. 20-6054

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on October 6, 2020. Although
the government waived its right to file a response, the Court has requested that a response be
filed. The government’s response is now due on December 8, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including January 8, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-6054
TRIBUE, ALEX CORI
USA

CONRAD BENJAMIN KAHN
FEDERAL DEFENDER ATTORNEY
201 S. ORANGE AVE.
STE 300
ORLANDO, FL 32801
407-648-6338
CONRAD_KAHN@FD.ORG

